HHS/OIG, Audit -"Review of Virginia's Accounts Receivable System for Medicaid Provider Overpayments,"(A-03-04-00206)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Virginia's Accounts Receivable System for Medicaid Provider Overpayments," (A-03-04-00206)
January 31, 2005
Complete
Text of Report is available in PDF format (764 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine if the Department reported overpayments in accordance with Federal regulations.  We
found that the Department did not report 10 overpayments totaling $169,068 ($85,430 Federal share) because provider appeals
had not been finalized.  When we brought these overpayments to the Departments attention, it reported them on the
CMS-64 for the quarter ended March 31, 2004.  The Department did not report 95 overpayments totaling $3,226,166 ($1,630,182
Federal share) within the required timeframe because it did not use the correct discovery date, and incorrectly reported
a bankruptcy credit adjustment of $1,260,760 on Line 2 rather than Line 4 of supplemental schedule CMS-64.90.  The
inaccurate reporting resulted in CMS having incorrect Medicaid expenditure and overpayment data.  This also potentially
resulted in higher interest expense to the Federal government of approximately $9,500.  The Department generally agreed
with our report and has already taken steps to address our recommendations.